AAAAAAAAAAAAAAA




                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audit Services




  Special Report

 Meeting Medical and Research
 Needs for Isotopes Derived from
 Uranium-233




 DOE/IG-0795                                May 2008
                            Department of Energy
                                Washington, DC 20585

                                 May 2 9 ,   2008




MEMORAN[lUM FOR

FROM:
                         Inspector General

SUBJECT:                 INFORMATION: Special Report on "Meeting Medical and
                         Research Needs for Isotopes Derived from Uranium-233"



As part of its program to produce isotopes for medical, research and industrial purposes.
the Departnient of Energy (Department) has used its unique nuclear facilities to produce
thorium-229 isotopes f'rom its inventory of uranium-233. Thorium-229 is used to create
actiniurn-225 and its progeny isotope, bismuth-213. Both actinium and bismuth are
extreniely rare isotopes that are now being used in clinical trials and cancer research at
organi~ationssuch as the Memorial Sloan-Kettering Cancer Center in New York. Early
research results have been promising, showing improved cancer survivability rates in test
populations. Consistent with these research results, a 2001 Departmental Report to
Congress underscored the importance of maintaining a supply of these isotopes to support
promising medical research and treatment. Specifically, the report stated that "the supply
of actinium-225lbismuth-213 available as uranium-233 decay products will be inadequate
if therapeutic applications for leukemia become even moderately successful and will
become woefully inadequate if successfully applied to other types of cancer including
prostate, breast. lymphomas, and various forms of brain cancer."

The Ilepartnient's inventory of uranium-233 resides primarily at the Idaho National
Laboratory (Idaho) and the Oak Ridge National Laboratory (ORNL). The Department
determined that these inventories are no longer needed to meet agency mission
requirements. In 2003, to aid in isotope production, Congress authorized the extraction
of thoriuni-229 from ORN1,'s uranium-233 inventory prior to its disposal. Subsequently.
however, Congress directed that the Department terminate the extraction process.
Responsibility for disposition of uranium-233 was transferred to the Environmental
Management (EM) program. Accordingly, in October 2007, at the recommendation of
the Department's Nuclear Materials Disposition and Consolidation Coordination Council,
the Department decided to prepare the ORNL inventory beginning in 2012 for disposal.
Further, the Departnient decided to dispose of the Idaho uranium-233 inventory at the
Nevada 'l'est Site as low-level waste and began shipments of the material in January
2008. Because of its importance to medical and other research activities. we initiated a
revieu to cvaluate whether the Department's planned disposition of its uranium-233
inventories would permit it to meet prqjected domestic medical and research needs for
actinium and bismuth. Shortly after initiating this review. we received information
alleging that the Ilepartment was disposing of uranium-233 that had significant potential
use.
We concluded ~ h a thc
                     t Department's current disposal plans provide no assurance that
suflicient quantities ofuranium-233 and its valuable progeny isotopes will be availablc to
support 1-J.S.medical and scientific research needs. We noted that:

       'The Department is the only domestic producer of progeny isotopes from uraniuin-
       233 and current production is insufficient to meet medical and scientific research
       11eeds. Once the planned disposal of uranium-233 is complete, the Department
       will not have the means to increase isotope production to meet the dramatic
       1,ro.jections of future needs for actinium and bismuth;

       At present, no viable alternative n~ethodsof production of actinium and bismuth
       have been demonstrated or proven; and,

       Uranium-233 also is used to support other Department missions such as the
       National Nuclear Security Administration's Test Readiness Program.

The importance of and continuing need for uranium-233 and related isotopes was
confirmed by I'he National Academy of Sciences in its September 20, 2007, report
entitled "Advuncirzg Nmc.leur Medicine Through Innovution." The National Academy was
asked by the Department and the National institutes of Health (NIH) to review the state
of the science of nuclear medicine. The study concluded that the Department and NII3
need to focus research on the development of new radionuclide production facilities and
technologies as well as the development and use of targeted radionuclide therapeutics that
will allow cancer treatments to be tailored for individual patients. The report also stated
that several of these radionuclides, including actinium-225, are not being produced in
sufficient quantities to meet existing research demand. The supply/demand balance is
also affected by recent reports from researchers asserting that problems with quality and
availability prevent them from using isotopes from foreign sources for human trials. The
vulnerability of obtaining radionuclides from foreign sources was also underscored by the
recent shutdown of a Canadian reactor, which provided many of the isotopes used in
medical diagnosis and treatment.

According to senior program managers, the inventory of uranium-233 is being disposed
of because there is a lack of programmatic authority to maintain the material and the
infrastructure necessary to continue extracting the actinium and bismuth. Currently, the
uranium-233 inventory is controlled and managed by the EM program, whose mission is
to dispose of the Department's unwanted materials. The EM program tried to transfer the
uranium-233 to other programs, such as the Office of Nuclear Energy (NE). However,
according to N E management, which currently manages the Department's Isotope
Programs, funding restrictions prohibit NE from taking possession of the inventory.

We recognize that the Department has, as a matter of policy, committed to providing
isotopes only when there is no U.S. private-sector capability or when the available supply
is insul'ficient to meet U.S. needs. In the case of uranium-233, the Department appears to
offer the only viable domestic production capability. Yet. even its existing production
capacity is insufficient to meet demand. Further, security and proliferation concerns
pruhi bit the 1)epartment tiom providing the source material directly to universities or
industry to pcrmit the development of'a viable private sector source. Based on our
consultations with program ofiicials within the Department, we learned that given
appropriate authorities and the available funding. several alternatives exist for assuring a
viablc inventory of these important radioisotopes. As was initially proposed ior the
inventory maintained at Oak Ridge, thorium-229 could be extracted from the ilraniun1-
233 prior to disposition. Alternatively, the Department could retain some portion of the
uraniu~n-233inventory, or develop alternative methods of producing actinium-225 and its
progeny isotope, bismuth-21 3. It should also be noted that other options are being
pursued by private sector entities in an effort to create these isotopes; however, it is not
yet known when or if these technologies will prove viable.

1'0 its credit, the Llepartment's Fiscal Year 2009 budget proposes to transfer the Nation's
isotope program to the Office of Science and seeks to increase research and development
in isotope production. The budget request mentions that future research and develop~nent
efforts will specifically consider the results of the recent National Academy of Science
report on nuclear medicine. However, without the feed material from which to produce
actinium and bismuth, the research must necessarily focus only on alternative production
methods - eflorts that at the least will significantly delay delivery of these potentially
beneficial isotopes to the medical research community.

Should the Department elect to proceed as planned. it may dispose of a national resource
that is irreplaceable. The potential for isotopes prod~~cedfrom i~ranium-233to help save
the livcs of thousands of American cancer patients is widely accepted, and one top
Departmental official estimated that isotopes production from OKNL stocks alone could
be used to treat about 6,000 patients annually. While we are sensitive to the complex
public policy implications associated with this matter, including significant budgetary
issues. we believe that the Department should explore alternati\.es for ensuring a stable
domestic supply ofthe important isotopes produced from uranium-233.

MANAGEMENT REACTION

Management did not concur with our recommendations but instead proposed alternative
actions designed to address certain issues described in our report. Notably, the
Department indicated that a merit-based peer re\.iew would be conducted to examine the
needs and priorities for actinium and bismuth. Management also noted that it planned to
work with hIIH to address the recommendations of the National Academy of'Scie11ces.
Citing concerns with cost, security, safety and Congressional mandates. management
stated that it would continue with the disposition of the uranium-233 inventories at Oak
Ridge and Idaho. Management also stated that it had largely addressed our
recon~mendationto evaluate the cost and benefits of harvesting thorium-229 from
uraniun1-233 prior to its disposal. Should Congress direct a new strategy for the
disposition of uraniilm-233, the Dcpartn~entpledged to work to establish a new
framework li)r the disposition of the material. Management's comments are contained as
Appendix 3 to our report and provide additional details regarding uranium-233
disposition decisions.

Wc arc encouraged that the 1)cpartment is taking stcps to conduct a merit-based pcer
review to examine the needs and priorities for production of progeny isotopes discussed
in 11ic rcporl and work~ngw ~ t hthe N111 to address medical and research isolopic needs.
Management's comments, ho~vevcr,\here not fully responsive in one importatit respect.
While the 1)cpartment has completed several evaluations regarding uranium-233
disposition alternatives for the Oak Ridge in~entory,these evaluations were completed
several years prior to the National Academy of Sciences report and did not consider
recent medical successes. the increasing demand for these isotopes. or address alternative
technologies for providing them.

Given the past and current role of the Department of Energy in supporting medical and
research activities. an evaluation needs to be coinpleted to provide Congress, the Ol'fice
of Management and Budget and other stakeholders with up-to-date information on which
to basc important public policy decisions regarding the Department's role in producing
mcdical and research isotopes. Management could also consider and address cost and
security concerns as a part ol'such a study.



cc:   Acting Ileputy Secrelary
      I lndcr Secretary of I'nergy
      1 lndcr Secretarj k r Science
      C'llicf 01' Staff
       Zssistanl Secretary for Environmental Management
      Assistant Secretary for Nuclear Fnergy
      Director. Office of Science
      Manager, Idaho Operations Office
      Manager, Oak Ridge Opei-ations Office
       I'cam 1,eadt.r. Audit 1,iaison 'Team, CF-1.2
SPECIAL REPORT ON MEETING MEDICAL AND RESEARCH NEEDS
FOR ISOTOPES DERIVED FROM URANIUM-233


TABLE OF
CONTENTS


  Ensuring a Viable Domestic Supply of Isotopes

  Details of Finding                                   1

  Recommendations and Comments                         6


  Appendices

   1. Objective, Scope, and Methodology                9

   2. Prior Audit Reports                              11

   3. Management Comments                              13
ENSURING A VIABLE DOMESTIC SUPPLY OF ISOTOPES

Department Plans   Should the Department of Energy (Department) carry out its
To Dispose of      disposition plans to dispose of its uranium-233, there is no
Uranium-233        assurance that a viable inventory of progeny isotopes
                   (actinium-225 and bismuth-213) will be available to meet domestic
                   medical and scientific research needs. Currently, the domestic
                   production of actinium-225 is approximately 650 millicuries per
                   year. This supply has been provided through a small inventory of
                   thorium-229 maintained at the Oak Ridge National Laboratory
                   (ORNL) that was extracted from uranium-233. However,
                   according to the National Institutes of Health's (NIH) projections,
                   demand is far greater. Specifically, NIH projects a demand for
                   actinium-225 of 1,700 millicuries in 2008 and 6,000 millicuries in
                   2009. With the decision to dispose of ORNL's inventory of
                   uranium-233, the production capability will be inadequate to meet
                   increasing domestic demands. Further, disposal of the Idaho
                   National Laboratory's (Idaho) uranium-233 inventory will
                   effectively eliminate the possibility of producing isotopes from that
                   source.1

                   The loss of the uranium-233 will have significant impact on
                   medical research which is now requiring a greater supply of
                   progeny isotopes than ever before. For example, ongoing research
                   includes Phase II clinical trials for the treatment of acute myeloid
                   leukemia at Memorial Sloan-Kettering Cancer Center in New
                   York. The results of Phase II trials showed increased survivability
                   of those receiving the treatment, where patients had no other
                   treatment options. Due to the limited availability of isotopes
                   currently being produced from uranium-233, only one Phase II trial
                   may be done at a time. Accordingly, researchers at Memorial
                   Sloan-Kettering have decided to focus their current research on
                   using the actinium-225 for alpha-particle immunotherapy trials,
                   and to postpone research work using bismuth-213.

                   In addition to myeloid leukemia, research is being conducted using
                   uranium-233 progeny isotopes to treat Non-Hodgkin Lymphoma,
                   bone marrow transplants, AIDS, as well as cancers of the lungs,
                   pancreas, and kidneys. Each treatment application requires
                   separate clinical trials to obtain U.S. Food and Drug
                   Administration (FDA) approval. Unfortunately, Memorial Sloan-
                   Kettering decided to delay Phase III clinical trial efforts for
                   myeloid leukemia due to the extremely short supply of bismuth.
                   Without the Department's inventory of uranium-233, there will not
                   be adequate domestic supplies to support the Phase III clinical trial

                   1
                    It should be noted that actinium-225 has been extracted from Idaho's inventory
                   of uranium-233 only on a laboratory scale. Planning for pilot, and ultimately
                   production levels, is currently ongoing.


Page 1                                                                    Details of Finding
         necessary to obtain FDA approval. According to the
         principal researcher at Memorial Sloan-Kettering for acute
         myeloid leukemia, if the Department continues with its
         plans to dispose of its inventory of uranium-233, then all
         research using actinium and bismuth will be lost due to the
         lack of supply. The president of a medical isotope supply
         company has noted that the medical industry will be able to
         use all of the progeny isotopes that could be produced from
         the Department's inventory should these clinical trials
         prove successful.

         While limited foreign supplies are available for the progeny
         isotopes, researchers told us that such products have quality
         and reliability concerns. For example, Memorial Sloan-
         Kettering Cancer Center has obtained actinium-225 from
         foreign sources; however, due to quality concerns, the
         Center's representatives stated that they will not use foreign
         sources for cancer treatment in humans, but may continue
         to use it in research. Further, effective treatment requires a
         reliable supply because, once the patient begins treatment,
         it must be available on an uninterrupted basis. Although
         we were unable to specifically verify these assertions,
         researchers informed us that foreign sources are not reliable
         enough to meet this need.

         The need for uranium-233 was recently confirmed by The
         National Academy of Sciences in its September 20, 2007,
         report entitled "Advancing Nuclear Medicine Through
         Innovation." The National Academies were asked by the
         Department and NIH to review the state of the science of
         nuclear medicine and future scientific areas of research for
         the Department's Medical Applications and Sciences
         Program. The study concluded that the Department and
         NIH need to focus their research on the development of
         new radionuclide production facilities and technologies as
         well as the development and use of targeted radionuclide
         therapeutics that will allow cancer treatments to be tailored
         for individual patients. The report specifically mentions
         the promise and need for actinium-225, one of 2 alpha
         emitters and one of 12 therapeutic radionuclides listed as
         being essential to nuclear medicine research. The report
         also states that several of these research radionuclides are
         not being produced in sufficient quantities to meet the
         research demand.




Page 2                                                   Details of Finding
               Several alternatives exist for assuring a viable inventory of
               these important radioisotopes. One alternative is to extract
               the thorium-229 prior to dispositioning the uranium-233.
               The contractor at ORNL responsible for disposition
               estimated the cost to extract the thorium-229 at $13.7
               million prior to the termination of the extraction project.
               Another alternative is to retain some portion of the
               Department's inventory of uranium-233. It is important to
               note, however, that due to safety and security concerns,
               uranium-233 will not be transferred outside of the
               Department. Conversely, thorium-229 and actinium-225
               can be transferred and sold outside of the Department.
               There are also a number of other processes being
               considered to produce these isotopes using, for example,
               accelerators, cyclotrons, and reactors. Various private
               enterprises are in the early stages of investigating these
               opportunities in order to meet the market demand. Each of
               the processes under investigation have their respective
               costs and benefits but it is not known when or if any of
               these will prove to be useful and affordable to the medical
               and research community. At present, none of the
               alternative technologies being considered have resulted in
               the actual production of actinium and bismuth.

               Finally, we noted that uranium-233 also has value to
               support other Department missions such as the National
               Nuclear Security Administration's Test Readiness Program.
               According to the pre-decisional draft Implementation Plan
               for the Disposition of Surplus uranium-233, the decision to
               dispose of the ORNL inventory of uranium-233 was made,
               in part, based on the sufficiency of the uranium-233 in
               Idaho to meet potential future needs. However, in October
               2007, the Department approved the Nuclear Materials
               Disposition and Consolidation Coordination Committee's
               recommendation to dispose of the Idaho inventory as well;
               therefore, there will no longer be any inventory to meet on-
               going programmatic needs.

Programmatic   Based on our discussion with several Department program
Authority      officials, we learned that there is currently a lack
               of programmatic authority to maintain the material and
               infrastructure necessary to continue providing progeny
               isotopes from uranium-233. Both the Idaho and ORNL
               uranium-233 inventories are now controlled and managed
               by the Office of Environmental Management (EM) whose
               mission is to dispose of these unwanted materials. Given
               this responsibility, EM is proceeding with short-term


Page 3                                                         Details of Finding
         actions to dispose of these materials as waste. EM's
         decision-making process considers various issues crucial
         for deciding whether to dispose of materials. One of the
         decision points is whether the material should be retained
         as a national resource. EM determined that uranium-233
         should not be retained as a national resource because there
         is no program with an identified current use and funding to
         take custody of the inventory. Further, EM is under
         pressure to dispose of the Idaho inventory quickly since the
         license for a disposal cask to transport the uranium-233
         expired on November 30, 2007. To avoid the cost of
         constructing and licensing a new cask, the Department is
         taking steps to extend this license for one year and is trying
         to dispose of the uranium-233 by September 30, 2008.

         Prior to reaching its disposal decision, EM tried to transfer
         the uranium-233 to other programs, such as the Office of
         Nuclear Energy (NE). However, no programs stepped
         forward to take control of the material since EM required
         the adopting program to assume responsibility for
         managing the uranium-233 and paying for the disposition
         costs. To retain this material, programs must have current
         projects with current funding sources – a circumstance that
         does not currently exist.

         NE currently manages the Department's Isotope Programs
         and would appear to be a likely Programmatic Secretarial
         Office to take custody of the uranium-233 inventory at
         Idaho. However, according to NE management, it lacks a
         Congressionally-approved programmatic mission and
         appropriated funds to take possession of the inventory.
         Additionally, NE has no program that can assume the
         disposition costs. For example, NE's Isotope Program has
         placed the need for isotopes derived from uranium-233 as
         one of its top priorities. However, the Isotope Program
         does not have the budget or programmatic authority to take
         control of uranium-233 feedstock materials that are
         necessary to produce these isotopes.

         The Department's Fiscal Year (FY) 2009 budget request,
         however, seeks to transfer management of the Isotope
         Program to the Office of Science and devote more funding
         and attention to meeting the demand for research and
         medical isotopes. Under the proposal, all isotope-related
         facilities and funding would be transferred to the Office of
         Science and a number of research-related initiatives not
         funded in FY 2008 by NE would be funded at nominal


Page 4                                                    Details of Finding
                   amounts. The FY 2009 budget request mentions that future
                   research and development efforts will specifically consider
                   the results of the recent National Academy of Science's
                   report on nuclear medicine. Without the feedstock material
                   from which to produce actinium and bismuth, however,
                   research must necessarily focus only on alternative
                   production methods – efforts that will at the least
                   significantly delay delivery of these valuable isotopes to the
                   medical research community.

Disposal Impacts   By pursuing disposition of its uranium-233, the Department
                   is poised to dispose of a national resource. Although other
                   means of producing these isotopes are currently under
                   investigation by the research community, it is not yet
                   known whether any of these will come to fruition. The
                   facilities that originally produced this material have all
                   been closed and decommissioned. To produce uranium-
                   233 using existing facilities, such as the Idaho National
                   Laboratory's Advance Test Reactor, program officials
                   indicated that it would take approximately 1,000 years to
                   replace the 320 kg of uranium-233 stored at Idaho.
                   Another alternative is to produce the actinium-225 using
                   accelerators or reactors; however, this requires chemical
                   processing and/or separation steps that are yet to be
                   determined. The current cost estimate to dispose of Idaho's
                   inventory of uranium-233 is approximately $5 million.
                   Alternatively, the current cost to store Idaho's inventory of
                   uranium-233 is approximately $60,000 per year. However,
                   the maintenance and storage costs of uranium-233 will
                   grow over time because, due to the radioactive decay
                   process, the material becomes increasingly more difficult to
                   manage.

                   More important than the cost to replace or retain this
                   material, is the potential for it to contribute to vital national
                   interests. There is real promise for it to help save the lives
                   of thousands of American cancer patients – in fact one top
                   Departmental official estimated that these isotopes could be
                   used to treat 6,000 patients annually. Also, should the
                   nuclear renaissance expand to include research into
                   proliferation resistant thorium cycle reactors, this material
                   could be vital. Further, this material could help the nation
                   explore space, offering an alternative to the plutonium
                   powered radioisotope thermoelectric generator technology




Page 5                                                                Details of Finding
                  that is currently deployed on NASA's deep space missions, as well
                  as other important uses. However, if the Department continues
                  with its plans to dispose of the uranium-233 none of these will
                  come about.

RECOMMENDATIONS   We recommend that the Under Secretary of Energy, working with
                  the Under Secretary for Science:

                       1. Prior to final disposal of the Department's inventory of
                          uranium-233, evaluate the costs and benefits of:

                              a. retaining the uranium-233 for the production of
                                 progeny isotopes;
                              b. extracting the thorium-229 and continuing with
                                 disposition of the uranium-233; or,
                              c. producing progeny isotopes using other
                                 technologies, such as an accelerator or reactor.

                       2. Work with the Office of Management and Budget and
                          Congress, as necessary, to identify funding sources and
                          approaches to meet demands for the isotopes discussed in
                          this report.

                       3. Identify an appropriate Programmatic Secretarial Office
                          to take responsibility for the material or identify means
                          whereby industry can assume custody of the material if
                          the decision is made to retain or extract isotopes from the
                          uranium-233

MANAGEMENT        Management expressed concerns that many of the recommended
REACTION          corrective actions directed in this report have been previously
                  implemented. Further, it noted that the current disposition strategy
                  for the Oak Ridge uranium-233 had been directed by Congress.
                  Alterations to the current strategy would have a significant impact
                  on the safety and security postures in Building 3019 at ORNL and
                  would require a change in Congressional mandate.

                  As to Recommendation 1, management stated that the analysis
                  called for has been largely addressed through previous evaluations.
                  Management stated, however, that the Office of Science will
                  employ a merit-based peer review process to examine the needs
                  and priorities for production of progeny isotopes discussed in this
                  report, in the context of the broader needs for other research
                  isotopes, and alternative production technologies. Regarding
                  Recommendation 2, the Department stated it is working with the
                  National Institutes of Health (NIH) to address the



Page 6                                       Recommendations and Comments
                   recommendations of the National Academy of Sciences pertaining
                   to the production of research isotopes in the broader context of
                   needs across both industry and research. Should Congress direct
                   an alternative strategy for the disposition of uranium-233, the
                   Department will work to establish a new framework for the
                   production of progeny isotopes. Management felt that this
                   approach was consistent with Recommendation 3, which directs
                   the Department to identify an appropriate Programmatic
                   Secretarial Office to take responsibility for the material if a
                   decision is made to use uranium-233 for isotope production.

AUDITOR COMMENTS   We are encouraged by management's proposals but remain
                   concerned that the planned actions are not fully responsive to our
                   recommendations. While we recognize that management
                   previously evaluated disposition options for the Oak Ridge
                   uranium-233 inventory, these evaluations were completed prior to
                   the recent National Academy of Sciences report and did not
                   consider the latest medical successes or the significant increase in
                   projected demand for the isotopes discussed in the report. For
                   example, one cost study referenced by management, "Evaluation
                   of the Options for Disposition of the U-233 Inventory at Oak Ridge
                   National Laboratory," was completed in April 2005. Another
                   study, "Environmental Assessment for the U-233 Disposition,
                   Medical Isotope Production, and Building 3019 Complex
                   Shutdown at the Oak Ridge National Laboratory," was issued in
                   December 2004.

                   Both of the studies (provided to us by management after we
                   received its comments on our draft report) supported thorium
                   extraction over continued storage of the Oak Ridge inventory.
                   None of the studies, however, compared the cost of producing
                   progeny isotopes through alternative technologies such as
                   accelerators. This evaluation needs to be completed to provide
                   Congress, the Office of Management and Budget and other
                   stakeholders with up-to-date information on which to base an
                   important public policy decision regarding the Department’s role
                   in the production of medical and research isotopes. The
                   evaluations also could be useful in examining the security and cost
                   concerns that management identifies as one of the primary drivers
                   for declining to interrupt the Oak Ridge disposal efforts.

                   Finally, we are pleased that the Department now intends to work
                   closely with NIH. Such interaction could be critical in identifying
                   funding and authorization sources for producing these valuable
                   isotopes. Management's comments on the third recommendation
                   are responsive. However, the efficacy of this recommendation is



Page 7                                                                    Comments
         dependent upon the Department successfully interacting with
         Congress and the Office of Management and Budget as advocated
         in Recommendation 2.




Page 8                                                     Comments
Appendix 1

OBJECTIVE     The objective of this audit was to evaluate whether the Department
              of Energy's (Department) planned disposition of its uranium-233
              inventories would permit it to meet projected domestic medical
              and research needs for actinium and bismuth isotopes.

SCOPE         The audit was performed from March 2007 to May 2008 at the
              Idaho Operations Office, Battelle Energy Alliance, LLC, and
              CH2M-WG Idaho, LLC in Idaho Falls, Idaho. We also obtained
              information from the Oak Ridge Operations Office in Oak Ridge,
              Tennessee; and the Isotope Program in Washington, D.C. The
              audit scope was limited to the disposition plans of uranium-233.

METHODOLOGY   To accomplish the audit objective, we:
                 •   Reviewed Federal regulations and Departmental directives
                     and guidance related to isotopes and uranium-233;

                 •   Reviewed prior reports issued by the Office of Inspector
                     General;

                 •   Reviewed reports by the National Academy of Sciences
                     and American Nuclear Society on isotopes;

                 •   Reviewed the Idaho National Laboratory's Cooperative
                     Research and Development Agreement to use Idaho's
                     uranium-233;

                 •   Held discussions with a researcher at Memorial Sloan-
                     Kettering Cancer Center;

                 •   Held discussions with companies in the isotope supply
                     industry;

                 •   Held discussions with program officials from Department
                     Headquarters and sites reviewed, including representatives
                     from the Office of Nuclear Energy, the Office of Science,
                     and Environmental Management; and,

                 •   Analyzed information provided by the organizations
                     reviewed to determine disposition plans and other uses for
                     uranium-233.




Page 9                                   Objective, Scope, and Methodology
Appendix 1 (continued)

                    We conducted this performance audit in accordance with generally
                    accepted government auditing standards. Those standards require
                    that we plan and perform the audit to obtain sufficient, appropriate
                    evidence to provide a reasonable basis for our findings and
                    conclusions based on our audit objective. We believe that the
                    evidence obtained provides a reasonable basis for our findings and
                    conclusions based on our audit objective. Specifically, we
                    assessed internal controls regarding the Department's disposition
                    plans for uranium-233. Because our review was limited, it would
                    not necessarily have disclosed all internal control deficiencies that
                    may have existed at the time of our audit. Also, we examined the
                    establishment of performance measures in accordance with the
                    Government Performance and Results Act of 1993 as it related to
                    the audit objective. Performance measures were identified at the
                    Idaho National Laboratory and the Isotope Program. Finally, we
                    did not rely on computer-processed data during the audit;
                    therefore, we did not conduct reliability assessments on the data.

                    An exit conference was held on May 23, 2008, with the Associate
                    Under Secretary for Energy, as well as representatives from the
                    Offices of Environmental Management, Nuclear Energy, and
                    Science.




Page 10                                         Objective, Scope, and Methodology
Appendix 2

                                   PRIOR AUDIT REPORTS


Office of Inspector General Reports

Management of the Department's Isotope Program (DOE/IG-0709, November 2005).
The Department of Energy (Department) had not always provided researchers with the isotopes
needed to conduct planned research. Since 1998, independent reviews, many of which were
sponsored by the Department, have noted that the Isotope Program did not fully support
production of research isotopes and that it had not adequately served the needs of the research
community. Even though the Department recognized in the 2005 Isotope Program Plan that the
current structure of the Program has had a "severe chilling effect on several promising areas of
medical research in the United States," it did not take what we considered to be adequate action
to address production issues. The Isotope Program Director stated that the Program is receiving
frequent requests for other research isotopes that it will be unable to fulfill, including actinium,
lutetium, and barium. For example, the Department is at its production limit for actinium, and
the Director stated that the Program would sell more of this isotope if more could be
produced. The price of actinium-225, from Fiscal Year (FY) 2002 to FY 2003, increased from
about $580 to $1,203 per unit. According to the FY 2005 Isotope Program Plan, if the
Department could produce a reliable supply of certain isotopes, there would be immediate use
for them in medical research with some moving to clinical trials and widespread application.
Further exacerbating this problem, the National Cancer Institute and the Society of Nuclear
Medicine expect there to be a dramatic increase in the use of medical isotopes by the research
community for a broad range of efforts.

Other Reports

Advancing Nuclear Medicine Through Innovation (National Academy of Sciences, September
2007). Advances on the horizon in nuclear medicine could substantially accelerate, simplify, and
reduce the cost of delivering and improving health care. However, the Department's Nuclear
Energy Isotope Program is not meeting the needs of the research community because the effort is
not adequately coordinated with National Institutes of Health activities or with the Department's
Office of Biological and Environmental Research. Public Law 101-101, which requires full-cost
recovery for Department-supplied isotopes, whether for clinical use or research, has restricted
research isotope production and radiopharmaceutical research. For targeted
radiopharmaceuticals to have a larger role in cancer treatment, the following key issues must be
resolved: more stable labeling methods for alpha emitters, particularly actinium-225 and
astatine-211, to maximize the therapeutic potential of therapeutics labeled with these
radionuclides. The radionuclides most frequently described as being essential to nuclear
medicine research includes actinium-225. Several of the research radionuclides are not being
produced in sufficient quantities to meet the research demand.

The U.S. National Isotope Program: Current Status and Strategy for Future Success
(American Nuclear Society, March 2005). Overall, this report found that the U.S. isotope
program is in a state of crisis, and immediate action is needed to address the major program
issues. The issues specifically directed at the Department include:



Page 11                                                                       Prior Audit Reports
Appendix 2 (continued)

  •   Research & Development (R&D) isotopes are not available at reasonable prices due to
      declining resources and policy change in the Department's Isotope Program.

  •   Elimination of Department R&D funding is impacting development of future isotope
      applications; and,

  •   Failure to provide the necessary leadership to reverse the decline of the Department's
      Isotope Program.




Page 12                                                                   Prior Audit Reports
Appendix 3




Page 13      Management Comments
Appendix 3 (continued)




Page 14                  Management Comments
Appendix 3 (continued)




Page 15                  Management Comments
Appendix 3 (continued)




Page 16                  Management Comments
Appendix 3 (continued)




Page 17                  Management Comments
                                                                    IG Report No. DOE/IG-0795

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
